No. 20-330
IN THE SUPREME COURT OF THE UNITED STATES
_________________
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
PETITIONER
v.
CITIZENS FOR RESPONSIBILITY AND ETHICS IN
WASHINGTON, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the REPLY BRIEF FOR THE PETITIONER, via email and first-class mail, postage prepaid,
this 23rd day of December, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 1,192
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
December 23, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 23, 2020

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-0330
TRUMP, DONALD J., PRESIDENT OF THE UNITED
STATES
CITIZENS FOR RESPONSIBILITY AND ETHICS IN
WASHINGTON, ET AL.
JOHN C. EASTMAN
THE CLAREMONT INSTITUTE CENTER FOR
CONSTITUTIONAL JURISPRUNCE
CHAPMAN UNIVERSITY
DALE E. FOWLER SCHOOL OF LAW
ONE UNIVERSITY DRIVE
ORANGE, CA 92866
877-855-3330
JEASTMAN@CHAPMAN.EDU
DEEPAK GUPTA
GUPTA WESSLER PLLC
1900 L STREET, NW
SUITE 312
WASHINGTON, DC 20036
202-888-1741
DEEPAK@GUPTAWESSIER.COM
ROBERT W. RAY
ZEICHNER ELLMAN & KRAUSE LLP
1211 AVENUE OF THE AMERICAS,
40TH FL.
NEW YORK, NY 10036
212-826-5321
RRAY@ZEKLAW.COM

VIA EMAIL

